Office of Material Loss Reviews
Report No. MLR-10-007


Material Loss Review of Strategic Capital
Bank, Champaign, Illinois




                                  December 2009
                                      Executive Summary

                                      Material Loss Review of Strategic Capital Bank,
                                      Champaign, Illinois
                                                                                       Report No. MLR-10-007
                                                                                              December 2009

Why We Did The Audit

On May 22, 2009, the Illinois Department of Financial Professional Regulation (IDFPR), Division of
Banking, closed Strategic Capital Bank (Strategic Capital), Champaign, Illinois, and named the FDIC as
receiver. On June 5, 2009, the FDIC notified the Office of Inspector General (OIG) that Strategic
Capital’s total assets at closing were $537.1 million and the estimated material loss to the Deposit
Insurance Fund (DIF) was $172.3 million. As required by section 38(k) of the Federal Deposit Insurance
(FDI) Act, the OIG conducted a material loss review of the failure of Strategic Capital.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.


Background

Strategic Capital was a state-chartered nonmember bank that operated from a single office in Champaign,
Illinois. Strategic Capital was wholly owned by Strategic Capital Bancorp, Inc. (SCBI), a single-bank
holding company. The bank opened in November 1999, and in January 2004, SCBI stockholders
approved the sale of 80 percent of SCBI stock to two individuals who assumed key leadership positions in
Strategic Capital and SCBI. This change in control was completed in June 2004.

Strategic Capital had a number of affiliates, including an association with Citizens Central Bancorp, Inc.
(the holding company of Citizens National Bank, Macomb, IL (CNB)) through common ownerships of
the two individuals that acquired SCBI in 2004. CNB was also closed on May 22, 2009 and also resulted
in a material loss to the DIF. CNB was a national bank supervised by the Office of the Comptroller of the
Currency, and the Department of the Treasury OIG is responsible for conducting a material loss review of
CNB. Treasury OIG’s report on its material loss review of CNB is expected to be issued by January 1,
2010. In mid-2007, Strategic Capital also opened a loan production office (LPO) in Oakbrook, Illinois, (a
suburb of Chicago, Illinois) that originated commercial real estate (CRE) loans.


Audit Results

Causes of Failure and Material Loss

Strategic Capital’s failure can be attributed to the Board of Directors (Board) and management’s
speculative and ill-timed growth strategy involving high-risk assets and volatile funding that began
subsequent to the completion of IDFPR’s 2007 on-site examination. Strategic Capital’s selection of risk
in the fourth quarter of 2007 and the first quarter of 2008 proved to be poor. Further, Strategic Capital’s
rapid growth strategy was in contravention to long-standing supervisory guidance related to CRE
concentrations and securities. In a short span of time, market conditions rapidly deteriorated, and
Strategic Capital faced credit downgrades associated with its investment portfolio and encountered
escalating loan problems that it had not anticipated. Ultimately, Strategic Capital did not have enough
capital to adequately support its new risk profile and could not absorb the losses.


                                  To view the full report, go to www.fdicig.gov.
   Executive Summary
                                     Material Loss Review of Strategic Capital Bank,
                                     Champaign, Illinois
                                                                                    Report No. MLR-10-007
                                                                                           December 2009


The FDIC’s Supervision of Strategic Capital

Between 2005 and 2007, the FDIC and IDFPR conducted timely and regular examinations of Strategic
Capital. Moreover, through their respective offsite monitoring activities, both the FDIC and IDFPR
promptly identified the rapid growth that occurred in the span of a few months subsequent to the 2007
examination. Further, the FDIC and IDFPR recognized the fact that the rapid growth was funded
primarily with brokered deposits and these activities had significantly altered Strategic Capital’s risk
profile and warranted increased supervisory attention. Accordingly, the FDIC, in coordination with
IDFPR, initiated a series of supervisory actions that led to the issuance of a formal enforcement action
against Strategic Capital in August 2008 in an effort to stop unsafe and unsound practices and deficiencies
related to its aggressive growth strategy. The FDIC and IDFPR closely monitored Strategic Capital’s
condition after the cease and desist order was issued until the institution was closed.

With respect to PCA, enforcement actions addressing Strategic Capital’s capital deficiencies were taken
in accordance with PCA capital-related provisions. Based on the supervisory actions taken, the FDIC
properly implemented applicable PCA provisions of section 38 in a timely manner. The bank was
unsuccessful in raising needed capital and was subsequently closed on May 22, 2009.

Management Response

On December 4, 2009, the Director, Division of Supervision and Consumer Protection (DSC), provided a
written response to the draft report. DSC’s response reiterated the OIG’s conclusions regarding the cause
of failure and our assessment of supervision.




                                 To view the full report, go to www.fdicig.gov.
                                 Contents
                                                                       Page
Background                                                               2

Causes of Failure and Material Loss                                      3
  Speculative Growth Strategy Involving High-Risk Assets                 3
  Reliance on Brokered Deposits                                          8

The FDIC’s Supervision of Strategic Capital                              9
  Supervisory History                                                    9
  Supervisory Concern Related to Rapid Growth                           11
  Supervisory Concern Related to Brokered Deposits                      14
  Implementation of PCA                                                 14

Corporation Comments                                                    15

Appendices
  1. Objectives, Scope, and Methodology                                 16
  2. Glossary of Terms                                                  18
  3. Acronyms                                                           21
  4. Corporation Comments                                               23

Tables
   1. Financial Condition of Strategic Capital from 2006 to 2009         3
   2. Strategic Capital’s Investment Portfolio                           5
   3. Examinations and Visitations of Strategic Capital from 2006 to    11
      2009
   4. Strategic Capital’s Growth Between September 2007 and             11
      March 2008

Figures
   1. Strategic Capital’s Growth from June 2007 through June 2008        4
   2. Strategic Capital’s ANB Loan Participations                        7
   3. Strategic Capital’s Net Non-Core Funding Dependence                9
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, Virginia 22226                                           Office of Inspector General


DATE:                                           December 4, 2009

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection


                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews



SUBJECT:                                        Material Loss Review of Strategic Capital Bank,
                                                Champaign, Illinois (Report No. MLR-10-007)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Strategic
Capital Bank (Strategic Capital), Champaign, Illinois. On May 22, 2009, the Illinois
Department of Financial Professional Regulation (IDFPR), Division of Banking, closed
the institution and named the FDIC as receiver. On June 5, 2009, the FDIC notified the
OIG that Strategic Capital’s total assets at closing were $537.1 million and the estimated
material loss to the Deposit Insurance Fund (DIF) was $172.3 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of the
institution, including implementation of the PCA provisions of section 38 of the FDI Act.
Appendix 1 contains details on our objectives, scope, and methodology. Appendix 2
1
  As defined by Section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25
million or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
contains a glossary of key terms and Appendix 3 contains a list of acronyms. Appendix 4
contains the Corporation’s comments on this report.


Background
Strategic Capital was a state-chartered nonmember bank that operated from a single
office in Champaign, Illinois. Strategic Capital was wholly owned by Strategic Capital
Bancorp, Inc. (SCBI), a single-bank holding company. The bank opened in November
1999 and in January 2004, SCBI stockholders approved the sale of 80 percent of SCBI
stock to two individuals who assumed key leadership positions in Strategic Capital and
SCBI. This change in control was completed in June 2004.

Strategic Capital had a number of affiliates, including an association with Citizens
Central Bancorp, Inc. (the holding company of Citizens National Bank, Macomb, IL
(CNB))3 through common ownerships of the two individuals who acquired SCBI in 2004.
In mid-2007, Strategic Capital also opened a loan production office (LPO) in Oakbrook,
Illinois (a suburb of Chicago, Illinois) that originated commercial real estate (CRE) loans.
The bank operations included several unique features:

    •   The bank functioned like a private bank, providing a full range of banking and
        financial services to individual and corporate customers in central Illinois.
    •   A significant portion of deposits was comprised of accounts in excess of
        $100,000, which was a function of brokered deposits and core account holders
        that carried higher account balances.
    •   The bank actively managed its investment portfolio to promote earnings. Until
        2007, Strategic Capital’s investment portfolio consisted of a large volume of
        municipal securities.

The bank experienced moderate growth following the change in ownership control until
late 2007 when total assets began to sharply increase. To fund that growth, Strategic
Capital significantly increased its reliance on brokered deposits. Table 1 provides
selected details on Strategic Capital’s financial condition from 2006 to 2009.




3
  On May 22, 2009, the Office of the Comptroller of the Currency closed CNB and named the FDIC as
receiver. CNB was a national bank supervised by the Office of the Comptroller of the Currency and also
resulted in a material loss to the DIF. The Department of the Treasury OIG is responsible for conducting a
material loss review of CNB. Treasury’s report on its material loss review of CNB is expected to be issued
by January 1, 2010.


                                                    2
Table 1: Financial Condition of Strategic Capital from 2006 to 2009
        Financial Measure                Mar-2009       Dec-2008         Dec-2007   Dec-2006
Total Assets ($000s)                      546,576         586,740         379,130    255,944
Total Investments ($000s)                 311,276         326,141         198,286    139,478
Total Loans ($000s)                       205,416         229,856         162,410    99,574
Total Deposits ($000s)                    479,384         512,250         300,999    209,277
Total Brokered Deposits ($000s)           421,772         452,009         178,758     81,506
Brokered Deposits/Total Deposits           88%              88%            59%         39%
Net Income (Loss) ($000s)                  1,607          (22,622)         3,527       3,447
Source: Uniform Bank Performance Reports (UBPR) for Strategic Capital.


Also impacting the financial condition of the Strategic Capital was a number of capital
injections in 2008, as follows:

    •   March 4, 2008 - $2 million in proceeds from an advance on an SCBI bank note.
    •   March 17, 2008 - $4.8 million in proceeds from the sale of a loan to bank
        shareholders. This was shown as a loan charge-off on the bank’s records.
    •   March 31, 2008 - $5 million in partial proceeds from the sale of additional SCBI
        stock.
    •   May 27, 2008 - $2 million in proceeds from another advance on an SCBI bank
        note.
    •   August 8, 2008 - $5.1 million in proceeds from the sale of additional SCBI stock.


Causes of Failure and Material Loss
Strategic Capital’s failure can be attributed to the Board of Directors (Board) and
management’s speculative and ill-timed growth strategy involving high-risk assets and
volatile funding that began subsequent to the completion of IDFPR’s 2007 on-site
examination. Strategic Capital’s selection of risk in the fourth quarter of 2007 and the
first quarter of 2008 proved to be poor. Further, Strategic Capital’s rapid growth strategy
was in contravention to long-standing supervisory guidance related to CRE
concentrations and securities. In a short span of time, market conditions rapidly
deteriorated, and Strategic Capital faced credit downgrades associated with its investment
portfolio and encountered escalating loan problems that it had not anticipated.
Ultimately, Strategic Capital did not have enough capital to adequately support its new
risk profile and could not absorb the losses.

Speculative Growth Strategy Involving High-Risk Assets

Between September 30, 2007 and June 30, 2008, Strategic Capital embarked on a
speculative growth strategy by increasing its reliance on brokered deposits to fund
significant concentrations of two risky assets:




                                                    3
       •        Mortgage-backed securities (MBS), more specifically, private-label mortgage-
                backed securities.4 These securities were backed by nontraditional mortgages with
                less than full documentation.
       •        CRE loans, comprised of (1) out-of-area CRE loan participations and (2) out-of-
                area CRE loans originated through its LPO. Concentrations of CRE lending can
                leave an institution vulnerable to economic cycles. Out-of-area loans are by
                nature more difficult to monitor and administer.

Figure 1 illustrates Strategic Capital’s growth in total assets, private-label MBS, and
loans by quarter from June 2007 through June 2008. Strategic Capital’s increased
reliance on brokered deposits is discussed later in this report.

Figure 1: Strategic Capital’s Growth from June 2007 through June 2008


                600,000
      ($ 000)




                450,000
                300,000
                150,000
                     0
                          Jun-07    Sep-07   Dec-07       Mar-08       Jun-08

                     Total Assets       Loans        Private-Label MBS
    Source: 2008 Report of Examination (ROE) for Strategic Capital.



Investments in High-Risk Securities

In 2007, Strategic Capital’s Board and management concluded that it was an
opportunistic time to invest in private-label MBS because these securities were being
offered at a significant discount. The private-label MBS that the bank purchased were
largely backed by nontraditional mortgages and many of the securities featured
concentrations in California and Florida. The decision to purchase such a concentration
of securities, that as of May 31, 2008, represented 782 percent of Tier 1 Capital, proved
to be disastrous for Strategic Capital even though the bank acquired the securities at a
discount. Table 2 summarizes Strategic Capital’s investment in private-label MBS and
municipal securities between June 2007 and June 2008. As illustrated in the table, the
most significant growth in investments occurred in the first quarter of 2008. By June
2008, the bank’s total investment portfolio totaled approximately 59 percent of total
assets.


4
  MBS (also referred to as collateralized mortgage obligations (CMO)) are created when individual
mortgage loans are packaged or pooled by issuers and offered to sale to investors. There are two types of
issuers – agency and private label. Agency-issued mortgage-backed securities meet specific underwriting
criteria whereas private label issues generally comprise nonconforming loans.


                                                     4
Table 2: Strategic Capital’s Investment Portfolio ($000s)
                            Jun-07         Sep-07          Dec-07             Mar-08             Jun-08
Private-Label MBS             $0           $8,360          $67,304           $270,520           $251,179
Municipal Securities       $116,046       $119,323        $129,277           $148,133           $149,406
Source: UBPRs for Strategic Capital.

Initially, the private-label MBS carried investment grade credit ratings. Accordingly,
these were weighted for risk-based capital purposes at 20 percent.5 However, during the
second quarter of 2008, two private-label MBS with a book value of $20.6 million were
downgraded below investment grade due to high delinquencies and other poor
performance metrics of the underlying mortgages. The requisite risk-based weighting for
below investment grade securities was substantially higher. For instance, the weighting
can equate to as much as one dollar of capital for each dollar invested. As a result of the
downgrades and need for increased capital to offset higher risk, Strategic Capital’s capital
levels were insufficient and the bank fell to Undercapitalized under PCA rules during the
2008 examination. As discussed later, this capital classification restricted Strategic
Capital’s ability to accept and renew brokered deposits, which were its primary funding
source. Future credit downgrades continued to place considerable pressure on the bank’s
risk-based capital ratio.

According to the Supervisory Policy Statement on Investment Securities and End-User
Derivative Activities (1998 Statement),6 institutions should strive to limit concentrations
in any one investment category, especially complex, illiquid, and high-risk investments
such as structured credit products.7 The 1998 Statement also makes it clear that Board
and senior management should (1) understand the nature and level of various risks
involved in the institution’s investments, (2) understand how such risks fit within the
institution’s overall business strategies, and (3) establish policies for conducting
investment activities and the policy should include risk limits. Further, purchasing
distressed structured credit products that represent large concentrations of capital is
considered an imprudent banking practice.

The 2008 ROE reported that Strategic Capital’s actions were in apparent contravention of
the 1998 Statement. First, Strategic Capital’s pre-purchase analysis and ongoing
monitoring failed to take into consideration the exposure of risk-based capital measures
to significant downgrades of securities and their implications for increased capital.
Consequently, when the bonds fell below investment grade, Strategic Capital had no
capital contingency plan in place. Second, Strategic Capital’s investment and asset-

5
  Appendix A (FDIC’s Statement of Policy and Risk-Based Capital) to Part 325, Capital Maintenance, of
the FDIC Rules and Regulations establishes a system for calculating risk-weighted assets by assigning
assets and off-balance sheet items to broad risk categories. The general risk-based capital standards allow
institutions to assign risk weights to MBS based on external credit ratings. Under this methodology, risk
weights range from 20 percent for the highest investment grade to
200 percent for below investment grade. Alternately, institutions can assign risk weights based on the
obligor or underlying collateral.
6
  This policy was adopted by the FDIC and other members of the Federal Financial Institutions
Examination Council in 1998.
7
  The term structured credit products includes, but is not limited to, MBS or CMOs.


                                                      5
liability policies did not include risk limits to control investment activity. The lack of
risk limits in its investment policy was also a weakness cited in the 2007 examination.

A Financial Institution Letter (FIL-20-2009), Risk Management of Investments in
Structured Credit Products, issued by the FDIC on April 30, 2009 to clarify existing
supervisory guidance on complex structured credit products, provides some insight into
Strategic Capital’s failed strategy. FIL-20-2009 states that amid the credit turmoil, some
institutions that were attracted to higher yields purchased illiquid and, in some instances,
distressed structured securities at a discount. This strategy assumed the discount would
provide a margin of safety against principal losses even given continued market stress,
including ongoing deteriorating collateral performance and credit rating downgrades.
However, in many cases, the discounts signaled the market’s well-founded concerns and
risk perception. Further, the FDIC has found that generally the discounts were not
sufficient to cover the losses that followed.

FIL-20-2009 also reiterates that despite their initial credit ratings, these securities retained
predominately speculative or high-risk characteristics. As a result, the purchase of
higher-risk structured financial securities at a discount did not preclude the securities
from adverse classification or analysis required by accounting rules to determine whether
a decline in fair value is temporary or an other than temporary impairment (OTTI).8

Out-of-Area CRE Loan Concentrations

Between June 30, 2007 and June 30, 2008, Strategic Capital also increased total loans
from $133 million to $248 million (or 87 percent). More specifically, CRE loans grew
from approximately $52 million at the time of the 2006 examination to approximately
$158 million by the July 2008 examination. Although Strategic Capital officials
recognized that other institutions were exiting this arena in 2007, senior officials believed
they could “cherry pick” the better CRE loans or projects and be profitable. Examiners
also learned that Strategic Capital’s Chairman wanted to replicate the aggressive growth
strategy of another bank, ANB Financial, National Association (ANB) of Bentonville,
Arkansas, because he perceived ANB’s strategy to be highly successful at the time.
Unfortunately, ANB’s aggressive growth strategy proved unsuccessful in the long-term
and was a leading cause of ANB’s failure in May 2008.9 Likewise, the strategy created
significant risks for Strategic Capital and strains on its capital that it could not overcome.




8
  Under Statement of Financial Accounting Standards No.115, Accounting for Certain Investments in Debt
and Equity Securities, if an impairment is other than temporary, the security must be written down to fair
value, with the corresponding loss taken through earnings (i.e., the income statement) establishing a new
cost basis for the security. The Statement was issued by the Financial Accounting Standards Board
(FASB).
9
  The Department of the Treasury completed a material loss review of ANB and identified aggressive
growth through CRE loans, including loans originated through an LPO, as one of the causes of ANB’s
failure (Treasury OIG report, entitled Safety and Soundness: Material Loss Review of ANB Financial,
National Association, dated November 25, 2008 (Report No. OIG-09-013)).


                                                    6
Strategic Capital first purchased two participations from ANB in 2006. During its
aggressive growth period, Strategic Capital purchased additional participations from
ANB. The ANB loans were primarily extended for residential and commercial land
development where repayment was dependent upon the sale of property. The loans
purchased from ANB were secured by real estate located well beyond Strategic Capital’s
lending market - 72 percent were in Utah and the remaining 28 percent were secured by
real estate in Arkansas, Arizona, and Wyoming. In most cases, soon after the loans were
made, the projects were delayed or never completed, resulting in the borrower’s
delinquency. Figure 2 illustrates the current value of ANB loans that Strategic Capital
purchased between 2006 and 2008 at the time of the FDIC and IDFPR 2009 visitation.

Figure 2: Strategic Capital’s ANB Loan Participations

  $50,000,000
  $45,000,000
  $40,000,000
  $35,000,000
  $30,000,000
  $25,000,000
  $20,000,000
  $15,000,000
  $10,000,000
   $5,000,000
           $0
                 7/20/2006

                             9/20/2006

                                         11/20/2006

                                                      1/20/2007

                                                                  3/20/2007

                                                                              5/20/2007

                                                                                          7/20/2007

                                                                                                      9/20/2007

                                                                                                                  11/20/2007

                                                                                                                               1/20/2008

                                                                                                                                           3/20/2008



Source: DSC files for Strategic Capital.

Also, during its growth period, Strategic Capital’s LPO generated approximately
$86 million in loans. Notably, ANB’s business model had also included the use of an
LPO. The LPO-generated loans represented approximately 40 percent of Strategic
Capital’s total loan portfolio with the vast majority centered in CRE lending. Although
prior examination reports had noted that Strategic Capital’s loan underwriting and credit
administration practices were generally satisfactory, the 2009 visitation report stated that
loan underwriting practices appeared to have been compromised in the bank’s efforts to
grow the bank.

According to FIL-104-2006, entitled, Concentrations in Commercial Real Estate
Lending, Sound Risk Management Practices, dated December 12, 2006, concentrations in
CRE loans can make institutions more vulnerable to cyclical CRE markets, and risk
management practices and capital levels should be commensurate with the level and
nature of the CRE concentration risk. Although the guidance does not specifically limit a
bank’s CRE lending, the guidance provides supervisory criteria for identifying financial
institutions that may have significant concentrations in CRE loans. Specifically, FIL-
104-2006 states that greater supervisory scrutiny may be appropriate for financial



                                                                                          7
institutions that have total CRE loans that represent 300 percent or more of the
institution’s total capital and the outstanding balance of the institution’s CRE loan
portfolio has increased by 50 percent or more during the prior 36 months.

The 2006 examination identified some concerns related to concentrations in commercial
real estate. Further, the June 2007 examination cited a few concerns with the volume of
out-of-area loans and recommended that the Board take steps to review and monitor all
loans outside of the bank’s trade area and give consideration to the principles of risk
diversification when making loans. Both the 2008 examination and 2009 visitation
reports emphasized the fact that the poor condition of the bank was a reflection of
management’s poor judgment as evidenced by the fact that many of the loans extended
after the 2007 examination quickly went bad. For example, during the 2008 examination,
a significant portion of the ANB loans were adversely classified. By the time of the
FDIC and IDFPR visitation in February 2009, the bank had experienced additional asset
quality deterioration, and 100 percent of the remaining ANB loans were classified. A
significant portion of the LPO-generated loans also became problematic because of the
poor real estate market and the borrower’s inability to carry the projects.

The July 2008 examination also found that the bank was in apparent violation of
Part 365, Real Estate Lending Standards, of the FDIC Rules and Regulations, in that the
bank’s loan policy did not include guidance on loan diversification and concentrations,
and did not set any specific limits on types of loans. Strategic Capital’s 2008 loan policy
also omitted more detailed guidelines that had been in its previous 2005 policy regarding
loan-to-value (LTV) limits. Further, the bank was in apparent contravention of Appendix
A (Interagency Guidelines for Real Estate Lending Policies) of Part 365 , with two loans
that exceeded the loan-to-value limits that had not been included in the bank’s LTV list.

Reliance on Brokered Deposits

Historically, Strategic Capital funded its lending and investment activities by acquiring
brokered deposits. Longer-maturity brokered deposits were written with a call option to
provide management with the flexibility of redeeming the deposit should interest rates
drop significantly and spreads start to narrow. In addition, the only early withdrawal
option held by the depositor was typically a “death put” (withdrawal permitted upon the
death of the depositor). Although brokered deposits are usually viewed as volatile
funding, Strategic Capital’s management regarded brokered deposits as very stable
because of the “death put” restriction. The 2006 and 2007 examination reports noted that
Strategic Capital’s liquidity structure was atypical and lent itself to a higher degree of
risk. Nonetheless, the 2007 examination report found that Strategic Capital adequately
managed non-core liabilities with proper attention to the maturity mix.

To fund its speculative growth strategy, management sharply increased its reliance on
brokered deposits beginning in the fourth quarter of 2007. Between September 30, 2007
and June 30, 2008, brokered deposits increased from approximately $102 million to
$467 million, or 359 percent. The bank also increased its reliance on Federal Home Loan
Bank (FHLB) advances during this period. A key metric of the risks related to a bank’s
liquidity management is the net non-core funding dependence ratio. This ratio is an


                                             8
indication of the degree to which the bank relies on non-core volatile liabilities, such as
brokered deposits, FHLB borrowings to fund long-term earning assets, and certificates of
deposit over $100,000. Generally, the lower the ratio, the less risk exposure there is for
the bank, whereas higher ratios reflect a reliance on funding sources that may not be
available in times of financial stress or adverse changes in market conditions. During the
2007 examination, this ratio was reported to be 42.75 percent. As illustrated in Figure 3,
Strategic Capital’s ratio was higher than 97 percent by December 2008, and its reliance
on non-core funding was consistently and significantly higher than its peer group.

Figure 3: Strategic Capital’s Net Non-Core Funding Dependence




            120%
            100%
                                                  97.16%    94.63%
            80%                          65.78%
    Ratio




                   50.60%                                                      Strategic Capital
            60%
                                41.00%                                         Peer
            40%
                       19.06%        21.03%       25.68%    30.37%    28.32%
            20%
             0%
                   Dec-05       Dec-06    Dec-07       Dec-08    Mar-09
                                         UBPR Date


Source: UBPRs for Strategic Capital.




The FDIC’s Supervision of Strategic Capital
Between 2005 and 2007, the FDIC and IDFPR conducted timely and regular
examinations of Strategic Capital. Moreover, through their respective offsite monitoring
activities, both the FDIC and IDFPR promptly identified the rapid growth that occurred
in the span of a few months subsequent to the 2007 examination. Further, the FDIC and
IDFPR recognized the fact that the rapid growth was funded primarily with brokered
deposits and these activities had significantly altered Strategic Capital’s risk profile and
warranted increased supervisory attention. Accordingly, the FDIC, in coordination with
IDFPR, initiated a series of supervisory actions that led to the issuance of a formal
enforcement action against Strategic Capital in August 2008 in an effort to stop unsafe
and unsound practices and deficiencies related to its aggressive growth strategy. The
FDIC and IDFPR closely monitored Strategic Capital’s condition after the cease and
desist order (C&D) was issued until the institution was closed in May 2009.

Supervisory History

Historically, Strategic Capital was a well-rated institution. From June 2006 through
February 2009, the FDIC and IDFPR collectively conducted three full-scope
examinations and three visitations of Strategic Capital. The bank had received a


                                                       9
composite “2” CAMELS rating in 2006 and a composite “1” in 2007.10 These types of
ratings generally indicate that a bank gives no cause for supervisory concern and
weaknesses identified are considered minor and correctable in normal course of business.
For example, consistent with its rating, the 2006 examination stated that all the
exceptions noted were well within management’s ability to implement, and adequate
commitments to implement recommendations were obtained during the various meetings
with management or from the Board members at the examination exit meeting.
Accordingly, given Strategic Capital’s 2007 composite rating and its size, the FDIC,
which alternated examinations with IDPFR, would have planned the next on-site
examination for December 2008.11

The level of supervisory concern changed considerably, however, in the fourth quarter of
2007, when the FDIC and IDPFR became aware through their respective offsite
monitoring activities that Strategic Capital was sharply increasing assets and its reliance
on brokered deposits. The actions taken by the FDIC in coordination with IDFPR,
including a formal enforcement action, are discussed below. Table 3 summarizes
examination and visitation activity from 2006 to 2009.




10
   Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.
11
   Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, on-site examinations of every state nonmember bank at least once during each
12-month period and allows for 18-month intervals for certain small institutions (total assets of less than
$500 million) if certain conditions are satisfied. Strategic Capital met these conditions by being well
capitalized and being assigned a "1" or "2" management component rating and a "1" or "2" composite
rating.



                                                     10
Table 3: Examinations and Visitations of Strategic Capital from 2006 to 2009
                                                               Supervisory
      Start Date              As of Date       Agency            Ratings             Supervisory Action
                                                                 (UFIRS)
      1/17/2006               12/31/2005         FDIC            222122/2                     N/A
      6/04/2007               3/31/2007          State           121121/1                     N/A
      6/25/2007               3/31/2007          FDIC              N/A            FDIC participation in state
      Visitation*                                                                 examination.

       4/22/2008              3/31/2008          FDIC               N/A           Accelerated examination
       Visitation                                                                 schedule by 5 months and
                                                                                  identified the need to bring
                                                                                  in two capital market
                                                                                  specialists.
       7/14/2008              6/30/2008          FDIC            445444/4         Issued C&D during the
                                                                                  examination and an
                                                                                  amended C&D when the
                                                                                  examination was completed.
       2/16/2009                 N/A          FDIC/State         555554/5         Continued monitoring
       Visitation                                                                 compliance with C&D.
 Source: Strategic Capital’s Reports of Examination and DSC supervisory documents.
 *This activity is characterized in FDIC’s tracking system as a visitation. An FDIC examiner participated in
 the state’s examination to evaluate Strategic Capital’s security portfolio. This activity did not result in a
 separate report; rather the results were reflected in the 2007 ROE.

Supervisory Concern Related to Rapid Growth

The FDIC, in coordination with IDFPR, took prompt supervisory action to address the
increased use of brokered deposits to fund rapid growth. Table 4 summarizes growth that
was of concern to both the FDIC and IDFPR between September 2007 and March 2008.

Table 4: Strategic Capital’s Growth Between September 2007 and March 2008
                 Sep-2007         Dec-2007         Percent         Dec-2007        Mar-2008         Percent
                  ($000s)          ($000s)         Change           ($000s)         ($000s)         Change
Total Assets      300,973          379,130           26             379,130         635,890           68
Investments       128,603          198,286           54             198,286         419,052           111
Brokered
Deposits            101,878        178,758             75           178,758         399,540            124
Source: UBPRs for Strategic Capital.

April 22, 2008 Visitation

The FDIC’s and IDFPR’s respective offsite analyses of 2007 third quarter Call Report
data in December 2007 prompted discussions between the FDIC and IDFPR about the
level of growth that had occurred since June 2007, and resulted in an agreement on the
need to closely evaluate Strategic Capital’s 2007 fourth quarter Call Report data. The
FDIC also called Strategic Capital officials to discuss the growth. In response to the
FDIC’s request during that discussion, Strategic Capital provided a list of ANB
participations to the FDIC. The FDIC compared this list to a list of classified loans
contained in an October 2007 Office of Comptroller of the Currency examination of


                                                      11
ANB. None of the ANB loans that Strategic Capital purchased were adversely classified
at that time. Based on its analysis of the fourth quarter data, the FDIC planned two visits:

     •   A targeted review of the ANB loan purchases made since the 2007 examination.
         (By this time, FDIC officials were aware of ANB’s deteriorating condition, and
         the FDIC wanted to assess the impact of ANB participations.)
     •   A targeted review of Strategic Capital’s investment portfolio by the FDIC’s
         capital market specialists.

The FDIC was able to begin the targeted review of loans purchased from ANB on
April 22, 2008. The visitation report, issued on May 2, 2008, found that four of the ANB
relationships were internally rated substandard and an additional two relationships posed
an increasing risk to the loan portfolio. At the time of the visitation, three of the
substandard relationships were delinquent, two of which were delinquent more than 90
days. The allowance for loan and lease losses (ALLL) was not at an appropriate level.

Based on the findings of the April 2008 visitation and the exceptional growth in assets,
MBS, and brokered deposits reflected in the March 31, 2008 Call Report data, the FDIC
decided to accelerate the start of its full-scope examination from the fourth quarter to the
third quarter of 2008. Consequently, the FDIC decided to defer the second visit planned
for June 2008 until July 2008 to coincide with the start of the examination.

July 2008 Examination

The 2008 examination team found that the overall condition of the bank had deteriorated
from satisfactory to unsatisfactory because of the downturn in the MBS and CRE loan
markets. The examination report characterized management’s strategy of using insured
brokered deposits to fund private-label MBS and CRE loans as speculative and wholly
unacceptable. Two capital market specialists participated on the examination team in
order to value the investment portfolio. The 2008 examination report stated that the
downward trend of credit ratings was indicative of an increased default probability, and
these downgrades had implications for Strategic Capital’s risk-based capital ratio and
regulatory capital thresholds. Examiners pointed out in the 2008 report that management
did not acquire the requisite expertise related to the risk-based capital calculation and,
consequently, did not understand the implications of the downgrades.

The FDIC’s capital market specialists found that pricing the portfolio proved to be very
volatile because of the credit rating downgrades that were occurring within the portfolio.
The accounting rules for valuing these types of securities were also evolving at that
time.12 The capital market specialists consulted with DSC’s Washington Office to
determine the proper valuation and treatment for Call Report purposes. During



12
  FASB Statement of Financial Accounting Standards No. 157, Fair Value Measurements, defines and
establishes a framework for measuring fair value. In October 2008, additional guidance was issued to
clarify application of this standard in a market that is not active.


                                                  12
the examination, the FDIC issued a C&D to compel the bank to discontinue its high-risk
investment strategy. The order required the bank to:

   •   maintain or shrink total assets;
   •   prohibit the acceptance of any new brokered deposits;
   •   submit a written plan to reduce the volume of brokered deposits;
   •   develop a written contingency funding plan;
   •   submit a written plan to reduce the concentration of risk in securities backed by
       nontraditional mortgages, and mortgages with less than full documentation of
       underlying loans;
   •   maintain Tier 1 capital and risk-based capital at or above 8 percent and
       12 percent, respectively;
   •   prohibit the declaration or payment of any cash dividends;
   •   establish policies and procedures to establish independent pricing on its
       investment portfolio;
   •   adopt written guidelines to quarterly assess the securities portfolio for
       impairment, in compliance with generally accepted accounting principles;
   •   establish policies and procedures for risk-based capital treatment of securities;
   •   develop a program to provide for monitoring of the bank’s compliance with the
       order; and
   •   provide progress reports to the FDIC’s Regional Director.

The bank stipulated to the C&D on August 14, 2008. On August 29, 2008, the bank
forwarded to the FDIC its Corrective Action and Preliminary Capital Restoration Plan
that was approved by Strategic Capital’s Board on August 27, 2008. Additionally, in
September 2008, the bank began submitting daily Liquidity Reports to the FDIC. Upon
completion of the examination, an amended C&D was issued to address the remaining
examination concerns. The bank stipulated to the amended C&D on December 8, 2008.

February 2009 Joint Visitation

The February 2009 joint visitation found that the bank’s overall condition had continued
to decline significantly since the July 2008 examination. The following highlights the
visitation results:

   •   The CRE concentration had increased to represent 545 percent of Tier 1 Capital
       (due to the decline in capital).
   •   Classified loans increased to $77 million. ANB loan classifications represented
       46 percent of total loan classifications and loans generated from the LPO
       represented 47 percent of total loans classifications. As a result of the poor
       condition of the loan portfolio, examiners determined that a provision of almost
       $10 million was required to reflect an acceptable ALLL balance.
   •   The valuation of the investment portfolio proved to be critical and difficult
       because of continued turmoil in the credit market. The FDIC capital market
       specialists took exception to the valuation model the bank used to calculate the
       fair value of the private-label MBS.



                                           13
     •   The December 31, 2008 Call Report had to be amended to reflect several findings
         of this visit. First, the provision expense of nearly $10 million was necessary to
         replenish the ALLL to an acceptable level. Second, additional unrealized losses
         related to the securities portfolio also needed to be reflected. Third, total risk
         weighted assets needed to be increased significantly.

The visitation report also noted that management had not fully complied with the
amended C&D, and failure of the institution appeared imminent.

Supervisory Concern Related to Brokered Deposits

FDIC’s Rules and Regulations Part 337, Unsafe and Unsound Banking Practices, states
that any Well Capitalized insured depository institution may solicit and accept, renew, or
roll over any brokered deposits without restriction. Under FDIC’s Rules and
Regulations, restrictions on brokered deposits are imposed when an institution falls below
Well Capitalized.13 Thus, prior to August 2008, when Strategic Capital’s capital level fell
below Well Capitalized, it was allowed to acquire brokered deposits. Accordingly, even
though Strategic Capital was aware of its deteriorating condition, it was able to acquire
an additional $83 million of insured brokered deposits at the end of July 2008.

Bank officials indicated to examiners that the purchase had been planned prior to the
examination. The funds were used to pay off maturing brokered deposits, and no
additional brokered deposits were added after July 2008. This increase, while allowable,
could have potentially increased the cost to the DIF if all the deposits were not assumed
by the acquiring institution. In February 2009, the bank submitted a request to roll over
brokered deposits; however, the FDIC had notified the bank on March 12, 2009 that it
was Significantly Undercapitalized. Under Part 337, the FDIC does not have the
authority to waive brokered deposit restrictions for institutions that are less than
Adequately Capitalized. Consequently, the FDIC denied the request.

In March 2009, the FDIC issued additional guidance, entitled, The Use of Volatile or
Special Funding Sources by Financial Institutions That are in a Weakened Condition,
(FIL 13-2009) that informs institutions that the FDIC will heighten its supervisory
concern for institutions that rely on non-core liabilities to fund risky assets, and that such
activity could result in higher deposit insurance premiums. Although this guidance was
not in effect at the time, increased reliance on brokered deposits was one of the triggers
for increased supervisory attention by the FDIC and IDFPR in the fourth quarter of 2007.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that are to be triggered depending on an

13
  Under Part 337, Undercapitalized and Adequately Capitalized institutions are prohibited from obtaining
or rolling over brokered deposits; however, Adequately Capitalized institutions may request a waiver of the
prohibition.


                                                    14
institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
PCA requirements by establishing a framework for taking prompt corrective action
against insured nonmember banks that are not adequately capitalized. Enforcement
actions addressing Strategic Capital’s capital deficiencies were taken in accordance with
PCA capital-related provisions. Based on the supervisory actions taken, the FDIC
properly implemented applicable PCA provisions of FDI Act section 38 in a timely
manner, as follows:

     •   On August 12, 2008, the FDIC notified the bank it was considered
         Undercapitalized and that it could not accept, renew, or roll over any brokered
         deposits as a result of the July 2008 examination.
     •   On September 24, 2008, the FDIC notified the bank that after a $5.1 million
         capital injection in August 2008, the bank’s capital category was raised to
         Adequately Capitalized, which still restricted the acquisition of brokered deposits
         without a waiver from the FDIC.
     •   On March 12, 2009, the FDIC notified Strategic Capital that its capital ratios for
         PCA purposes had declined to Significantly Undercapitalized as a result of the
         February 2009 joint visitation.

Strategic Capital submitted an application for Troubled Asset Relief Program (TARP)14
funding on November 14, 2008. Strategic Capital subsequently withdrew its application
on April 20, 2009. The bank was unsuccessful in raising needed capital and was
subsequently closed on May 22, 2009.


Corporation Comments
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On December 4, 2009, the
Director, DSC, provided a written response to the draft report. DSC’s response reiterated
the OIG’s conclusions regarding the cause of failure and our assessment of supervision,
and the response is provided in its entirety as Appendix 4 of this report.




14
  TARP was established under the Emergency Economic Stabilization Act of 2008. The Act established
the Office of Financial Stability within the Department of the Treasury. Under the TARP, Treasury will
purchase up to $250 billion of preferred shares from qualifying institutions as part of the Capital Purchase
Program.


                                                     15
                                                                               Appendix 1
                     Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from September 2009 to November 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit focused on Strategic Capital’s operations from 2006 until its
failure on May 22, 2009. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

     •   Analyzed ROEs and visitation reports prepared by the FDIC and the IDFPR
         examiners from 2006 to 2009.

     •   Reviewed the following:

           •   Bank data and correspondence maintained at DSC’s Chicago Regional
               Office and Field Office.

           •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.

           •   Pertinent DSC policies and procedures.

     •   Interviewed the following officials:

           •   DSC management in Washington, D.C., and the Chicago Regional Office.


                                                16
                                                                                Appendix 1
                     Objectives, Scope, and Methodology



          •   FDIC examiners from the Champaign and Springfield, Illinois, Field Offices,
              and the Eau Claire, Wisconsin, Field Office, as well as capital market
              specialists from the Chicago Regional Office and Princeton, Illinois, Field
              Office who participated in examinations and visitations of Strategic Capital.

          •   DRR officials at the Dallas Regional Office.

          •   Officials from IDFPR to discuss the historical perspective of the institution,
              its examinations, and other activities regarding the state's supervision of the
              bank.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand Strategic Capital’s management controls
pertaining to causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we analyzed documentation to
determine whether the FDIC had complied with provisions of PCA and performed
limited tests to determine compliance with certain aspects of the FDI Act. The results of
our analysis were discussed, where appropriate, in the report. Additionally, we assessed
the risk of fraud and abuse related to our objectives in the course of evaluating audit
evidence.




                                              17
                                                                                  Appendix 2
                               Glossary of Terms


Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with off-
                    balance sheet loan instruments such as standby letters of credit.

Call Report         Consolidated Reports of Condition and Income (also known as the Call
                    Report) are reports that are required to be filed by every national bank,
                    state member bank, and insured nonmember bank pursuant to the
                    Federal Deposit Insurance Act. These reports are used to calculate
                    deposit insurance assessments and monitor the condition, performance,
                    and risk profile of individual banks and the banking industry.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound
                    practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.

Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.

Loan Production     LPOs are banking offices that take loan applications and arrange
Office (LPO)        financing for corporations and small businesses, but they do not accept
                    deposits. Loan applications are subject to approval by the lending
                    institution.

Mortgage Backed     Securities representing an undivided interest in a pool of mortgages with
Security (MBS)      similar characteristics. Payments on the underlying mortgages are used
                    to make payments to the security holders.

Other Than          An impairment of a debt instrument occurs when the fair value of the
Temporary           security is less than its amortized cost basis. According to accounting
Impairment          standards, when the impairment is judged to be other than temporary, the
(OTTI)              cost basis of the individual security must be written down to fair value,
                    thereby establishing a new cost basis for the security and the amount of
                    the write-down must be included in earnings as a realized loss.
Private Label       Mortgage-backed securities issued by private entities that are generally
Mortgage-Backed     comprised of nonconforming loans or mortgages that do not meet the
Securities          size, delinquency, or underwriting standards to be included in agency-
                    issued securities.



                                            18
                                                                                 Appendix 2
                               Glossary of Terms



Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations (C.F.R), section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 United States Code
                    section 1831(o), by establishing a framework for taking prompt
                    supervisory actions against insured nonmember banks that are less than
                    adequately capitalized. The following terms are used to describe capital
                    adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and
                    (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective
                    action or compliance with the PCA statute with respect to an institution
                    that falls within any of the three categories of undercapitalized
                    institutions.

Risk-Based          A “supplemental” capital standard under Part 325 of the FDIC Rules and
Capital             Regulations. Under the risk-based framework, a bank’s qualifying total
                    capital base consists of two types of capital elements, “core capital”
                    (Tier 1) and “supplementary capital” (Tier 2).

Risk-Weighted       A system of calculating the risk-weighting of assets by assigning assets
Assets              and off-balance sheet items to broad risk categories.

Tier 1 (Core)       Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R.
Capital             section 325.2(v), as
                    The sum of:
                        • Common stockholder’s equity (common stock and related
                            surplus, undivided profits, disclosed capital reserves, foreign
                            currency translation adjustments, less net unrealized losses on
                            available-for-sale securities with readily determinable market
                            values);
                        • Non-cumulative perpetual preferred stock; and
                        • Minority interest in consolidated subsidiaries;
                    Minus:
                        • Certain intangible assets;
                        • Identified losses;
                        •   Investments in securities subsidiaries subject to section 337.4;
                            and
                        •   Deferred tax assets in excess of the limit set forth in section
                            325.5(g).




                                            19
                                                                             Appendix 2
                            Glossary of Terms



Tier 2           Tier 2 capital is defined in Appendix A to Part 325 of the FDIC Rules
(Supplemental)   and Regulations, and is generally the sum of:
Capital              • Allowances for loan and lease losses, up to a maximum of 1.25
                         percent of risk-weighted assets;
                     • Cumulative perpetual preferred stock, long-term preferred stock
                         and related surplus;
                     • Perpetual preferred stock (dividend is reset periodically);
                     • Hybrid capital instruments; and
                     • Term subordinated debt and intermediate-term preferred stock.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group
Report (UBPR)    performance. The report is produced by the Federal Financial
                 Institutions Examination Council for the use of banking supervisors,
                 bankers, and the general public and is produced quarterly from Call
                 Report data submitted by banks.




                                         20
                                                                    Appendix 3
                               Acronyms



ALLL     Allowance for Loan and Lease Losses

ANB      ANB Financial, National Association

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity
         to Market Risk

CMO      Collateralized Mortgage Obligation

CNB      Citizens National Bank

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FASB     Financial Accounting Standards Board

FDI      Federal Deposit Insurance

FDIC     Federal Deposit Insurance Corporation

FHLB     Federal Home Loan Bank

FIL      Financial Institution Letter

IDFPR    Illinois Department of Financial Professional Regulation

LPO      Loan Production Office

LTV      Loan-to-Value

MBS      Mortgage-Backed Securities

OIG      Office of Inspector General




                                        21
                                                       Appendix 3
                             Acronyms



OTTI    Other Than Temporary Impairment

PCA     Prompt Corrective Action

ROE     Report of Examination

SCBI    Strategic Capital Bancorp, Incorporated

TARP    Troubled Asset Relief Program

UBPR    Uniform Bank Performance Report

UFIRS   Uniform Financial Institutions Rating System




                                   22
                                                                                                              Appendix 4
                                 Corporation Comments

FDICi
Federal Deposit Insurance Corporation
550 17th Slreet NW. Washhglon. D.C 20429.9990                          Di~.ision of 5upervislo and Consumer Proledoo

                                                                            December 4, 2009

MEMORA~Dl;M TO:                       Stephen Ikard
                                      Assistant Inspector Generøl for Material Loss Reviews

FROM:                                 Sandra L. lhompsQn
                                      Director

SUBJECT:                               Dra1ì Audit Report Entitled, Material Loss Review of Strategic
                                       Capital flank. Champaign. Illinois
                                       (Assigrunent No. 2009-(54)

 Pursuant to Section 38(k) of        the Federal Deposit Insurance Act (FDl Ad), thi: Fi:dcrai Deposit
 Insurance Corporation's Oftce of Inspector General (010) Ciiiiducted a material loss review of
 Strategic Capital Bank (SCB) whi¡;h failed on May 22, 2009. This memorandum is the response
 of the Division ol Supervision and Consumer Protection (DSe) to the Ole;' s Dratì Report
 (RepOll) received on November 13. 200!).

 1 he i~eport coiidudes SCB failed duc to the Boards and malUigements speculativi: and ill-timed
 gro\\th strategy involving higher-risk assets and noii-core funding that began subsequent                  to the

 June 2007 examination. The Report further states sen significantly altered its risk prolie in the
 fourth quarter of 2007 and Iìrst quarter of 2008. Additionally. sen's rapid growth strategy was
 in contravention of long-standing supervisory guidance related II commercial r.:al estate
 concentrations ¡¡nd securities. The rapid deterioration in market conditions led to credit
 downgrades in SCB's se¡;urities portlolio and increasing loan problems. Ultimately, SCB diù not
 have the capital to absorb the losses and adequately support iis new risk prolìle.

 As part of the supervisory program. the FDIC and the Illinois Department of Financial
 Professional Regulation (IDFPR) conducted on-sitc risk management examinations in January
 2006. June 2007. and July 2008: and on-site risk management visitations in June 2007, April
 2008, and February 2009; of which the July 2UOS exaniination included recommendations
 regarding concentrations and non-core funding. As recognized in the Report, offsite monitoring
 by both the FDIC and ile IDFPR in Decemher 2007, promptly identified the rapid growth
 subsequent to the June 2007 examination, and FDIC performed additional ofI~iie monitoring in
 January 2008, March 2008. ami June 2008. Further, in August 2008. DSC issued a lormal
 enlorcement action in an elToit to stop unsafe and unsound bankiig practices anù address
 delì¡;ien¡;ies rdatcd to sen's aggrcssive growth strategy. FDIC and the IDFPR appropriately
 monitored SCß until tbc time that it was closed.

 Thank you for the opportunity to review and comment on the Repoil.




                                                       23
